                                              OFFICE OF WORKERS’
                                              COMPENSATION PROGRAMS


Office of Inspector General—Office of Audit




                                              SPECIAL REPORT RELATING TO THE
                                              FEDERAL EMPLOYEES’ COMPENSATION ACT
                                              SPECIAL BENEFIT FUND
                                              September 30, 2010




                                               This report was prepared by KPMG LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.


                                                                                __________________________
                                                                                Assistant Inspector General for Audit
                                                                                U.S. Department of Labor




                                                                         Date Issued: October 29, 2010
                                                                      Report Number: 22-11-001-04-431
                                                                                Special Report Relating to the
                                                      Federal Employees’ Compensation Act Special Benefit Fund

Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… .......................... 3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense ........................ 5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ......................................................................... 11

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense ........................................................ 13

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures............................................................................................................. 17

      B.   Schedules

             Schedule of Actuarial Liability by Agency ......................................................... 19

             Schedule of Net Intra-Governmental Accounts Receivable by Agency .......... 21

             Schedule of Benefit Expense by Agency ........................................................... 23

      C.   Agreed-Upon Procedures and Results

             Actuarial Liability ................................................................................................. 25

             Net Intra-Governmental Accounts Receivable .................................................. 33

             Benefit Expense ................................................................................................... 40

Appendix
             Acronyms and Abbreviations ............................................................................. 45




Prepared by KPMG LLP, for the                                                                                                       1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor                               Office of Inspector General
                                                       Washington, DC 20210




                 Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR:               FEDERAL AGENCIES WITH RESPONSIBILITIES
                              FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                              ACT PROGRAM




FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General for Audit

SUBJECT:                      Special Report Relating to the Federal Employees’
                              Compensation Act Special Benefit Fund – FY 2010
                              Report No. 22-11-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (the Fund) that was prepared to assist in the audit of your
agency’s annual financial statements. The U.S. Department of Labor, Office of
Workers’ Compensation Programs (OWCP), administers the Fund and the DOL Office
of Inspector General (OIG) is responsible for auditing the Fund.

The OIG contracted with the independent certified public accounting firm of KPMG LLP
(KPMG) to prepare the report on the Fund as of and for the year ended
September 30, 2010. This special report consists of two reports. The first report is an
opinion on the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable, and Benefit Expense of the Fund (the Schedule) as of and for the year
ended September 30, 2010. KPMG issued an unqualified opinion on the Schedule. In
connection with this audit, KPMG performed certain tests of controls and compliance
with laws and regulations related to the Fund. Their testing disclosed a significant
deficiency in internal control over financial reporting titled “Controls Over the Financial
Reporting Process Need Improvement.” This significant deficiency is not considered to
be a material weakness. Their testing of compliance disclosed no instances of
noncompliance or other matters that are required to be reported under generally
accepted government auditing standards.
The second report is an agreed-upon procedures (AUP) report on the Schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of and for the year ended September 30, 2010. This report
includes a description of the procedures performed and the results of those procedures.
Prepared by KPMG LLP, for the                                                            3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the OIG nor KPMG makes
any representations regarding the sufficiency of the procedures. Because the AUP
performed did not constitute an audit, the auditor did not express an opinion on any
elements, accounts, or items as they pertained to the AUP report. Further, neither the
OIG nor KPMG has any obligation to perform any procedures beyond those listed in the
attached report.

KPMG is responsible for the attached reports dated October 29, 2010, and the
conclusions expressed in the reports. We reviewed KPMG’s reports and related
documentation and inquired of their representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was not
intended to enable us to express, and we do not express opinions on: the actuarial
liability, net intra-governmental accounts receivable, and benefit expense of the Fund in
total as of and for the year ended September 30, 2010; or the AUP report on the
schedules of actuarial liability, net intra-governmental accounts receivable and benefit
expense of the Fund by agency as of and for the year ended September 30, 2010. Our
review disclosed no instances where KPMG did not comply, in all material respects,
with generally accepted government auditing standards.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:

               Joseph L. Donovan, Jr.
               Audit Director, Financial Statement Audits
               U.S. Department of Labor
               Office of Inspector General
               200 Constitution Ave., N.W., Room S-5512
               Washington, D.C. 20210

               Fax: (202) 693-5169
               E-mail: donovan.joseph@oig.dol.gov




4                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                             Special Report Relating to the
                                                   Federal Employees’ Compensation Act Special Benefit Fund



                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036-3389




                                                  SECTION 1A
                        Independent Auditors’ Report on the
                Schedule of Actuarial Liability, Net Intra-Governmental
                     Accounts Receivable, and Benefit Expense

Shelby Hallmark, Director
Office of Workers’ Compensation Programs, U.S. Department of Labor
Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:

We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2010, and Benefit Expense for
the year ended September 30, 2010, of the U.S. Department of Labor’s (DOL) Federal
Employees’ Compensation Act Special Benefit Fund (the Schedule). The objective of
our audit was to express an opinion on the fair presentation of DOL’s Schedule. In
connection with our audit, we also considered DOL’s internal control over financial
reporting related to the Schedule and tested DOL’s compliance with certain provisions
of applicable laws and regulations that could have a direct and material effect on the
Schedule.
SUMMARY
As stated in our Opinion On The Schedule section of this report, we concluded that
DOL’s Schedule as of and for the year ended September 30, 2010, is presented fairly,
in all material respects, in conformity with U.S. generally accepted accounting
principles.
Our consideration of internal control over financial reporting resulted in the identification
of a deficiency that we consider to be a significant deficiency, as defined in the Internal
Control Over Financial Reporting section of this report, related to weaknesses in internal
control over financial reporting. We did not identify any deficiencies in internal control
over financial reporting that we consider to be material weaknesses as defined in the
Internal Control Over Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.



Prepared by KPMG LLP, for the                                                                            5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




The following sections discuss our opinion on DOL’s Schedule, our consideration of
DOL’s internal control over financial reporting, our tests of DOL’s compliance with
certain provisions of applicable laws and regulations, and management’s and our
responsibilities.
OPINION ON THE SCHEDULE
We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
Governmental Accounts Receivable as of September 30, 2010, and Benefit Expense for
the year ended September 30, 2010, of the U.S. Department of Labor’s Federal
Employees’ Compensation Act Special Benefit Fund.
In our opinion, the Schedule referred to above presents fairly, in all material respects,
the actuarial liability and net intra-governmental accounts receivable as of September
30, 2010, and benefit expense for the year ended September 30, 2010, in conformity
with U.S. generally accepted accounting principles.
INTERNAL CONTROL OVER FINANCIAL REPORTING
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of DOL’s Schedule will not
be prevented, or detected and corrected on a timely basis.
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify
all deficiencies in internal control over financial reporting that might be deficiencies,
significant deficiencies, or material weaknesses. In our audit, we did not identify any
deficiencies in internal control over financial reporting that we consider to be material
weaknesses, as defined above. However, we identified a deficiency in internal control
over financial reporting that is described in Exhibit I that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with
governance. Exhibit I also provides the status of the prior year significant deficiency.
COMPLIANCE AND OTHER MATTERS
The results of our tests of compliance as described in the Responsibilities section of this
report disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.




6                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




RESPONSIBILITIES
Management’s Responsibilities. Management is responsible for the Schedule;
establishing and maintaining effective internal control; and complying with laws and
regulations applicable to the Schedule.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the Schedule
based on our audit. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the Schedule is free of material
misstatement. An audit includes consideration of internal control over financial reporting
as a basis for designing audit procedures that are appropriate in the circumstances, but
not for the purpose of expressing an opinion on the effectiveness of DOL’s internal
control over financial reporting. Accordingly, we express no such opinion.
An audit also includes:
    Examining, on a test basis, evidence supporting the amounts and disclosures in
     the Schedule;
    Assessing the accounting principles used and significant estimates made by
     management; and
    Evaluating the overall Schedule presentation.
We believe that our audit provides a reasonable basis for our opinion.
In planning and performing our audit, we considered DOL’s internal control over
financial reporting by obtaining an understanding of DOL’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Schedule, but not for the purpose of
expressing an opinion on the effectiveness of DOL’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of DOL’s
internal control over financial reporting.
As part of obtaining reasonable assurance about whether the Schedule is free of
material misstatement, we performed tests of DOL’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of Schedule amounts. We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with
all laws and regulations applicable to the DOL Schedule. However, providing an opinion
on compliance with laws and regulations was not an objective of our audit and,
accordingly, we do not express such an opinion.

Prepared by KPMG LLP, for the                                                                   7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




DOL’s response to the finding identified in our audit is presented in Exhibit I. We did not
audit DOL’s response and, accordingly, we express no opinion on it.
This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
the U.S. Congress, and those Federal agencies with responsibility for the FECA
program and is not intended to be and should not be used by anyone other than these
specified parties.



October 29, 2010




8                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                                                         Exhibit I
Controls Over the Financial Reporting Process Need Improvement

During our FY 2008 and FY 2009 audits, we noted deficiencies in the internal control
over financial reporting related to the preparation of the FECA Schedule of Actuarial
Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense (the
Schedule) as prepared by the Employment Standards Administration, Office of
Management, Administration and Planning (ESA/OMAP) that resulted in a number of
errors in the draft Schedule that were later corrected by management.

We recommended that ESA/OMAP management establish and implement written
policies and procedures that would provide those responsible for preparing and
reviewing the Schedule with detailed guidance to facilitate the preparation and review of
the Schedule and mitigate the risk of misstatements in the future. Furthermore, the
policies and procedures should include comparing the balances reported in the
Schedule to the DOL general ledger and information posted on the DOL website. We
also recommended that policies and procedures be established and implemented to
prepare and review the Schedule quarterly instead of just at fiscal year end to help
ensure that the Schedule is prepared accurately and timely at fiscal year end in the
future.

During our FY 2010 audit, we noted that the Office of Workers’ Compensation Programs
(OWCP) management had not established formalized policies and procedures that
would provide those responsible for preparing and reviewing the Schedule with detailed
guidance to facilitate the timely preparation and review of the Schedule and mitigate the
risk of misstatements in the future. We also noted that OWCP had not established and
implemented policies and procedures to prepare and review the Schedule quarterly
instead of just at fiscal year end to help ensure that the Schedule is prepared accurately
and timely at fiscal year end.

Per GAO’s Standards of Internal Control in the Federal Government, “Internal control
should generally be designed to assure that ongoing monitoring occurs in the course of
normal operations. It is performed continually and is ingrained in the agency’s
operations. It includes regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.”

GAO’s Standards of Internal Control in the Federal Government also states,
“Transactions should be promptly recorded to maintain their relevance and value to
management in controlling operations and making decisions. This applies to the entire
process or life cycle of a transaction or event from the initiation and authorization
through its final classification in summary records. In addition, control activities help to
ensure that all transactions are completely and accurately recorded.”




Prepared by KPMG LLP, for the                                                                   9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that
“The agency head must establish controls that reasonably ensure that obligations and
costs are in compliance with applicable laws; funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues
and expenditures applicable to agency operations are properly recorded and accounted
for to permit the preparation of accounts and reliable financial and statistical reports . . .”

During the prior fiscal year, OWCP was a component of the ESA, which was the agency
within the Department of Labor (DOL) responsible for both preparing the FECA
Schedule and providing the information to the CFO Act agencies and other specified
agencies to support and facilitate the preparation of their respective financial
statements. Effective November 8, 2009, the ESA was abolished and OWCP now
reports directly to the Office of the Secretary of Labor. OWCP’s accounting staff was
also reduced from 5 to 2 professionals during the reorganization. In January 2010, DOL
implemented the New Core Financial Management System (NCFMS) to replace its
legacy accounting and reporting system, the Department of Labor Accounting and
Related Systems (DOLAR$). The implementation of NCFMS required significant
involvement of OWCP’s accounting staff. These staffing reductions and the increase in
demands on the remaining staff prevented OWCP from being able to dedicate sufficient
resources to implement our prior year recommendation.

Management’s Response:

Management agreed to formalize written policies and procedures for preparation and
review of the schedules, and stated that this action will be completed during the second
quarter of FY 2011. Management also stated that quarterly trial schedules will be
prepared for each of the first three quarters of FY 2011 once the procedures are
formally established.

Auditors’ Conclusion:

The prior-year recommendation remains resolved and open.           To close the
recommendation, OWCP needs to provide documentation that the written policies and
procedures for preparation of the schedules have been developed and implemented,
and quarterly trial schedules have been prepared.




10                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 1B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
            Schedule of Actuarial Liability and Net Intra-Governmental
        Accounts Receivable as of September 30, 2010, and Benefit Expense
                     For the Year Ended September 30, 2010

                                    (dollars in thousands)

       Actuarial Liability                                                    $ 29,819,932


       Net Intra-Governmental Accounts Receivable                              $ 5,133,835


       Benefit Expense                                                         $ 5,674,807




                             See accompanying notes to the Schedule.


Prepared by KPMG LLP, for the                                                                  11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2010, and Benefit Expense
                     For the Year Ended September 30, 2010

1.     Significant Accounting Policies

       a.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2010, and Benefit Expense for the year ended
       September 30, 2010, of the U.S. Department of Labor’s Federal Employees’
       Compensation Act Special Benefit Fund (the Schedule) has been prepared to
       report the actuarial liability, net intra-governmental accounts receivable, and
       benefit expense of the U.S. Department of Labor’s (DOL) Federal Employees'
       Compensation Act (FECA) Special Benefit Fund (the Special Benefit Fund). The
       Special Benefit Fund was established by the Federal Employees' Compensation
       Act to provide for the financial needs resulting from compensation and medical
       benefits authorized under the Act. The DOL, Office of Workers’ Compensation
       Programs (OWCP) is charged with the responsibility of operating the Special
       Benefit Fund under the provisions of the Act. The Schedule has been prepared
       from the accounting records of the Special Benefit Fund. The actuarial liability,
       net intra-governmental accounts receivable, and benefit expense of the Special
       Benefit Fund are considered specified accounts for the purpose of this Schedule.
       OWCP is responsible for providing this information to the CFO Act agencies and
       other specified agencies to support and prepare their respective financial
       statements. Effective November 8, 2009, the ESA was abolished and OWCP
       reports directly to the Office of the Secretary of Labor.

       The actuarial liability of $29,819,932 thousand is an accrued estimate of future
       workers' compensation benefits as of September 30, 2010. Historical benefits
       paid, inflation and interest rate assumptions, and other economic factors are
       applied to the actuarial model that calculates the liability estimate. The net intra-
       governmental accounts receivable is the amount due from Federal agencies for
       benefit payments paid to or on behalf of employees of the employing agency as
       of September 30, 2010. The net intra-governmental accounts receivable includes
       amounts which were billed to the employing agencies through June 30, 2010, but
       not paid as of September 30, 2010, including prior years, if applicable, plus the
       accrued receivable for benefit payments not yet billed for the period of July 1,
       2010, through September 30, 2010, less credits due from the public. Benefit
                                                                              (continued)




Prepared by KPMG LLP, for the                                                                  13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                         SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2010, and Benefit Expense
                     For the Year Ended September 30, 2010

       expense consist of benefits paid and accrued for the period from October 1,
       2009, to September 30, 2010, plus the net change in the actuarial liability for the
       fiscal year.

       Benefit payments are intended to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees
       whose death is attributable to job-related injury or occupational disease.

b.     Basis of Accounting

       The Schedule has been prepared on the accrual basis of accounting in
       conformity with U.S. generally accepted accounting principles.

       An estimate of claims that have been incurred but not reported are included in
       the actuarial liability. Therefore, the actuarial liability represents the estimated
       present value of future compensation and medical payments based upon
       approved claims, plus a component for incurred but not reported claims.

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The Special Benefit Fund was established under the authority of the Federal
       Employees' Compensation Act to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease, and beneficiaries of employees
       whose death is attributable to a job-related injury or occupational disease. The
       fund is reimbursed by other Federal agencies for the FECA benefit payments
       made on behalf of their workers.

       The actuarial liability for future workers’ compensation reported on the Schedule
       includes the expected liability for death, disability, medical and miscellaneous
       costs for approved cases as well as an estimate for those cases incurred but not
       reported. The liability is determined using a method that utilizes historical benefit
       payment patterns related to a specific incurred period to predict the ultimate
       payments related to that period. The actuarial model uses a Paid Loss
       Development Method by agency, by defined agency groups, and in total using
       inflation rate assumptions on both past and future indemnity and medical benefits
       to adjust past data and project forward.
                                                                             (continued)
14                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund



                                              SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2010, and Benefit Expense
                     For the Year Ended September 30, 2010

       Consistent with past practice and as allowed under U.S. generally accepted
       accounting principles, these projected annual benefit payments have been
       discounted to present value using the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting was 3.65% in year 1 and 4.30% in
       subsequent years.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA), and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                             FY            COLA          CPI-Med

                           2011            2.23%           3.45%
                           2012            1.13%           3.43%
                           2013            1.70%           3.64%
                           2014            1.90%           3.66%
                           2015            1.93%           3.73%
       The medical inflation rates presented represent an average of published
       quarterly rates covering the benefit payment fiscal year. The compensation
       factors presented are the blended rates used by the model rather than the
       published July 23, 2010, FECA-COLA factor from which the blended rates are
       derived.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable balance of $5,133,835 thousand
       represents the total of the amounts billed to Federal agencies through June 30,
       2010, that had not been paid as of September 30, 2010, of $4,300,876 thousand,
       including prior year’s amounts billed, if applicable; plus an accrued

                                                                                  (continued)


Prepared by KPMG LLP, for the                                                                   15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                             SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2010, and Benefit Expense
                     For the Year Ended September 30, 2010

       receivable for benefit payments not yet billed for the period July 1, 2010, through
       September 30, 2010, of $857,461 thousand, less applicable credits due from the
       Public of $24,502 thousand. The FECA Special Benefit Fund also receives an
       appropriation for special cases and older cases where employing agencies are
       not charged for benefit payments.

       Each Federal agency is required by the Federal Employees’ Compensation Act
       to include in their annual budget estimate a request for an appropriation in the
       amount equal to the agency cost. Agencies not receiving an appropriation are
       required to pay agency costs from funds directly under their control. In addition,
       certain corporations and instrumentalities are assessed under the Federal
       Employees' Compensation Act for a fair share of the costs of administering
       disability claims filed by their employees. The fair share costs are included in the
       calculation to determine the net intra-governmental accounts receivable.

4.     Benefit Expense
       Benefit expense for the year ended September 30, 2010, was comprised of the
       following (dollars in thousands):

                 Benefits paid for compensation                 $ 1,930,115
                 Benefits paid for medical benefits                 926,701
                 Change in accrued benefits                         (48,237)
                 Change in actuarial liability                    2,866,228

                    Total benefit expense                       $ 5,674,807




16                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                             Special Report Relating to the
                                                   Federal Employees’ Compensation Act Special Benefit Fund




                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036-3389



                                                  SECTION 2A
                            Independent Accountants’ Report
                          on Applying Agreed-Upon Procedures

Shelby Hallmark, Director
Office of Workers’ Compensation Programs, U.S. Department of Labor
Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:


We have performed the procedures described in Section 2C, Agreed-Upon Procedures
and Results, which were agreed to by the U.S. Department of Labor, U.S. Government
Accountability Office, Office of Management and Budget, and the Agencies specified in
Section 2B of this Report, solely to assist you and such agencies with respect to the
accompanying Schedules of Actuarial Liability by Agency and Net Intra-Governmental
Accounts Receivable by Agency as of September 30, 2010, and Benefit Expense by
Agency for the year ended September 30, 2010, of the U.S. Department of Labor
Federal Employees’ Compensation Act Special Benefit Fund (the Schedules). The U.S.
Department of Labor is responsible for the Schedules (Section 2B).
This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and with Government Auditing Standards, issued by the Comptroller
General of the United States.
The sufficiency of these procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. Our agreed-upon procedures and results are
presented in Section 2C of this report.
We were not engaged to, and did not conduct an examination of the Schedules of
Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency,
and Benefit Expense by Agency, the objective of which would be the expression of an
opinion on the Schedules or a part thereof. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to
our attention that would have been reported to you.
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.



Prepared by KPMG LLP, for the                                                                           17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget,
and those Federal agencies with responsibility for the FECA program, and is not
intended to be and should not be used by anyone other than these specified parties.




October 29, 2010




18                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                        Schedule of Actuarial Liability by Agency
                               As of September 30, 2010

                                       (dollars in thousands)
                                                                                  Actuarial
 AGENCY                                                                           Liability
 Agency for International Development                                         $     26,035
 Environmental Protection Agency                                                    44,938
 General Services Administration                                                   135,331
 National Aeronautics and Space Administration                                      55,402
 National Science Foundation                                                          1,356
 Nuclear Regulatory Commission                                                        7,575
 Office of Personnel Management                                                     22,044
 U.S. Postal Service                                                          10,597,448
 Small Business Administration                                                      29,960
 Social Security Administration                                                    319,296
 Tennessee Valley Authority                                                        499,357
 U. S. Department of Agriculture                                                   881,454
 U. S. Department of the Air Force                                                1,321,451
 U. S. Department of the Army                                                     1,813,932
 U. S. Department of Commerce                                                      210,235
 U. S. Department of Defense – other                                               820,707
 U. S. Department of Education                                                      17,603
 U. S. Department of Energy                                                         93,317
 U. S. Department of Health and Human Services                                     259,500
 U. S. Department of Homeland Security                                            1,937,836
 U. S. Department of Housing and Urban Development                                  72,289
                                                                                      (continued)
Prepared by KPMG LLP, for the                                                                  19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                                 Schedule of Actuarial Liability by Agency
                                        As of September 30, 2010

                                                     (dollars in thousands)


                                                                                                            Actuarial
 AGENCY                                                                                                     Liability
 U. S. Department of the Interior                                                                             $ 723,132
 U. S. Department of Justice                                                                                  1,314,109
 U. S. Department of Labor                                                                                     226,494
 U. S. Department of the Navy                                                                                 2,463,087
 U. S. Department of State                                                                                       71,997
 U. S. Department of Transportation                                                                            976,754
 U. S. Department of the Treasury                                                                              544,345
 U. S. Department of Veterans Affairs                                                                         1,862,265
 Other agencies1                                                                                              2,470,683
 Total - all agencies                                                                                      $ 29,819,932




1 Non-billable and other agencies for which OWCP has not individually calculated an actuarial liability.


20                                                                                   Prepared by KPMG LLP, for the
                                                                U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 22-11-001-04-431
                                                                                                Special Report Relating to the
                                                                      Federal Employees’ Compensation Act Special Benefit Fund

                                                                     SECTION 2B
                                        U.S. Department of Labor
                              Office of Workers’ Compensation Programs
                      Federal Employees’ Compensation Act Special Benefit Fund
                                              Schedule of Net Intra-Governmental
                                               Accounts Receivable by Agency
                                                  As of September 30, 2010
                                                                 (dollars in thousands)

                                                                                                      Amounts                        Net Intra-
                                                                              Amounts                 Expended         Credits     Governmental
                                                                              Billed Not               Not Yet        Due from       Accounts
AGENCY                                                                       Yet Paid (1)             Billed (2)      Public (3)   Receivable (4)
Agency for International Development                                                $ 6,805                 $ 1,057      $ (30)          $ 7,832
Environmental Protection Agency                                                          8,630                1,648         (47)           10,231
General Services Administration                                                       27,844                  4,354       (124)            32,074
National Aeronautics and Space
Administration                                                                        11,894                  1,771         (51)           13,614
National Science Foundation                                                                 282                 60           (2)               340
Nuclear Regulatory Commission                                                            1,477                 249           (7)              1,719
Office of Personnel Management                                                           4,014                 833          (24)              4,823
United States Postal Service                                                     1,161,120                  357,552    (10,217)         1,508,455
Small Business Administration                                                            5,095                 793          (23)              5,865
Social Security Administration                                                        51,372                  8,139       (233)            59,278
Tennessee Valley Authority                                                            61,841                 16,011       (458)            77,394
U. S. Department of Agriculture                                                     146,510                  22,229       (635)          168,104
U. S. Department of the Air Force                                                   260,490                  40,396      (1,154)         299,732
U. S. Department of the Army                                                        279,135                  42,606      (1,217)         320,524
U. S. Department of Commerce                                                          34,622                  8,396       (240)            42,778
U. S. Department of Defense – other                                                 206,069                  31,187       (891)          236,365
U. S. Department of Education                                                            3,036                 524          (15)              3,545
U. S. Department of Energy                                                            15,870                  2,864         (82)           18,652

                                                                                                                               (continued)
 1 Amount billed through June 30, 2010 (including prior years) but not yet paid as of September 30, 2010.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2010 through September 30, 2010.
 3 Allocation of credits due from the public through September 30, 2010.
 4 Total amount due to the fund for each agency as of September 30, 2010.




 Prepared by KPMG LLP, for the                                                                                                           21
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-11-001-04-431
  Special Report Relating to the
  Federal Employees’ Compensation Act Special Benefit Fund

                                                                        SECTION 2B
                                         U.S. Department of Labor
                               Office of Workers’ Compensation Programs
                       Federal Employees’ Compensation Act Special Benefit Fund
                                               Schedule of Net Intra-Governmental
                                                Accounts Receivable by Agency
                                                   As of September 30, 2010

                                                                  (dollars in thousands)

                                                                                                      Amounts                         Net Intra-
                                                                             Amounts                  Expended          Credits     Governmental
                                                                            Billed Not                 Not Yet         Due from       Accounts
AGENCY                                                                      Yet Paid (1)              Billed (2)       Public (3)   Receivable (4)
U. S. Department of Health and Human
Services                                                                           $ 51,724                  $ 7,869      $ (225)         $ 59,368
U. S. Department of Homeland Security                                               324,882                  49,613       (1,418)         373,077
U. S. Department of Housing and Urban
Development                                                                           15,144                  2,497          (71)          17,570
U. S. Department of the Interior                                                    118,053                  18,311         (523)         135,841
U. S. Department of Justice                                                         211,622                  32,761         (936)         243,447
U. S. Department of Labor                                                             45,891                  8,077         (231)          53,737
U. S. Department of the Navy                                                        474,046                  73,730       (2,107)         545,669
U. S. Department of State                                                             15,433                  2,669          (76)          18,026
U. S. Department of Transportation                                                  196,939                  31,391         (897)         227,433
U. S. Department of the Treasury                                                    106,247                  16,901         (483)         122,665
U. S. Department of Veterans Affairs                                                360,366                  55,867       (1,596)         414,637
Other agencies                                                                        94,423                 17,106         (489)         111,040
Total - all agencies                                                         $ 4,300,876                $ 857,461      $ (24,502)      $ 5,133,835


  1 Amount billed through June 30, 2010 (including prior years) but not yet paid as of September 30, 2010.
  2 Amounts paid and accrued but not yet billed for the period July 1, 2010 through September 30, 2010.
  3 Allocation of credits due from public through September 30, 2010.
  4 Total amount due to the fund for each agency as of September 30, 2010.




  22                                                                                                 Prepared by KPMG LLP, for the
                                                                               U.S. Department of Labor—Office of Inspector General
                                                                                                  Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                         Schedule of Benefit Expense by Agency
                               As of September 30, 2010

                                       (dollars in thousands)

                                                       Benefits Paid
                                                       and Change         Change in           Total
                                                        in Accrued        Actuarial          Benefit
AGENCY                                                    Benefits         Liability        Expense

Agency for International Development                            $ 3,328       $ (850)            $ 2,478
Environmental Protection Agency                                   4,534           816                 5,350
General Services Administration                                  13,465         (622)            12,843
National Aeronautics and Space Administration                     5,452       (1,510)                 3,942
National Science Foundation                                        159             37                  196
Nuclear Regulatory Commission                                      733           (53)                  680
Office of Personnel Management                                    2,148           348                 2,496
United States Postal Service                               1,130,060        1,090,197          2,220,257
Small Business Administration                                     2,441           320                 2,761
Social Security Administration                                   25,506         8,659            34,165
Tennessee Valley Authority                                       51,023       (6,134)            44,889
U. S. Department of Agriculture                                  71,767        35,458           107,225
U. S. Department of the Air Force                               128,239        34,516           162,755
U. S. Department of the Army                                    175,885        23,662           199,547
U. S. Department of Commerce                                     22,069        39,048            61,117
U. S. Department of Defense – other                              62,966         4,853            67,819
U. S. Department of Education                                     1,553         1,404                 2,957
U. S. Department of Energy                                        9,152       (2,580)                 6,572
U. S. Department of Health and Human Services                    24,658         6,188            30,846
U.S. Department of Homeland Security                            161,464       111,616           273,080
                                                                                        (continued)
Prepared by KPMG LLP, for the                                                                   23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
       Special Report Relating to the
       Federal Employees’ Compensation Act Special Benefit Fund

                                                                SECTION 2B
                                          U.S. Department of Labor
                                Office of Workers’ Compensation Programs
                        Federal Employees’ Compensation Act Special Benefit Fund
                                         Schedule of Benefit Expense by Agency
                                               As of September 30, 2010

                                                            (dollars in thousands)

                                                                                   Benefits Paid
                                                                                   and Change               Change in         Total
                                                                                    in Accrued              Actuarial        Benefit
AGENCY                                                                                Benefits               Liability      Expense
U. S. Department of Housing and Urban Development                                            $ 7,842              $ 3,231     $ 11,073
U. S. Department of the Interior                                                              58,438               25,921       84,359
U. S. Department of Justice                                                                 105,406                80,208      185,614
U. S. Department of Labor                                                                     20,213                9,698       29,911
U. S. Department of the Navy                                                                232,556                37,500      270,056
U. S. Department of State                                                                       7,297                376         7,673
U. S. Department of Transportation                                                            96,417                6,015      102,432
U. S. Department of the Treasury                                                              52,972               18,915       71,887
U. S. Department of Veterans Affairs                                                        181,613               127,336      308,949
Other agencies (1)                                                                          149,223           1,211,655      1,360,878
Total - all agencies                                                                   $ 2,808,579          $ 2,866,228     $ 5,674,807


       1 Non-billable and other agencies for which OWCP has not individually calculated an actuarial liability.




       24                                                                                    Prepared by KPMG LLP, for the
                                                                       U.S. Department of Labor—Office of Inspector General
                                                                                          Report Number: 22-11-001-04-431
                                                                          Special Report Relating to the
                                                Federal Employees’ Compensation Act Special Benefit Fund

                                                SECTION 2C

                                Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                      Results of Procedures

    1) Calculated the actuarial liability as of The actuarial liability as of September 30,
       September 30, 2010, using KPMG’s 2010, calculated using KPMG’s loss
       loss development actuarial model1.       development       actuarial     model    is
                                                approximately $29.5 billion.


    2) Recalculated the actuarial liability as No exceptions were found as a result of
       of September 30, 2010, using DOL’s applying this procedure.
       loss development actuarial model2.


    3) Compared DOL’s actuarial liability as              DOL’s actuarial liability as of September
       of September 30, 2010, using DOL’s                 30, 2010, using DOL’s loss development
       loss development actuarial model to                actuarial model is approximately $332
       KPMG’s calculation of the actuarial                million (1.1%) greater than KPMG’s
       liability as of September 30, 2010,                calculation of the actuarial liability as of
       using KPMG’s loss development                      September 30, 2010, using KPMG’s loss
       actuarial model.                                   development actuarial model.




1
  KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements
its methodology with the number of workers related to each agency in injury years 2005 through 2010.
2
  The DOL model uses a Paid Loss Development Method by agency, by defined agency groups, and in total using
inflation rate assumptions on both past and future indemnity and medical benefits to adjust past data and project
forward.
Prepared by KPMG LLP, for the                                                                                   25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 4) Compared DOL’s actuarial liability as No exceptions were found as a result of
    of September 30, 2010, using DOL’s applying this procedure.
    loss development actuarial model to
    KPMG’s calculation of the actuarial
    liability as of September 30, 2010,
    using DOL’s loss development
    actuarial model. For any identified
    differences, confirmed that DOL
    corrected the difference in DOL’s final
    loss development actuarial model by
    agreeing (a) KPMG’s calculation of
    the actuarial liability as of September
    30, 2010, using DOL’s final loss
    development actuarial model to (b) the
    actuarial liability reported in the
    special report.


 5) Compared the interest rate and               No exception was noted in our comparison
    inflation     (COLA,      CPI-Med)           of the interest rate assumption. KPMG’s
    assumptions used by the DOL loss             model does not use an explicit inflation
    development actuarial model as of            rate assumption because it does not adjust
    September 30, 2010, to the interest          data to the current level and therefore
    rate and inflation (COLA, CPI-Med)           inflation was implicitly included in the loss
    assumptions used by KPMG’s loss              development patterns selected.
    development model as of September
    30, 2010.




26                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 6) Compared the average interest rate             The average interest rate used by the DOL
    and average inflation rate (COLA and           loss   development      actuarial   model
    CPI-Med) assumptions used by the               decreased from 4.70% to 4.28% from
    DOL loss development actuarial                 September 30, 2009 to September 30,
    model as of September 30, 2009, to             2010.
    the average interest rate and average
    inflation rate (COLA and CPI-Med)              The average COLA rate used by the DOL
    assumptions used by the DOL loss               loss   development   actuarial  model
    development actuarial model as of              decreased from 1.92% to 1.91% from
    September 30, 2010.                            September 30, 2009 to September 30,
                                                   2010.

                                                   The average CPI-med rate used by the
                                                   DOL loss development actuarial model
                                                   increased from 3.68% to 3.71% from
                                                   September 30, 2009 to September 30,
                                                   2010.




Prepared by KPMG LLP, for the                                                                   27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 7) Calculated the percentage change in          The actuarial liability increased in the
    the actuarial liability by agency and in     aggregate from approximately $27.0 billion
    the aggregate from September 30,             as   of   September       30,   2009,    to
    2009, to September 30, 2010, based           approximately $29.8 billion (10.63%) as of
    on the DOL loss development                  September 30, 2010.
    actuarial model, identified agencies
    whose actuarial liability changed by         The following agencies had a change in
    more than 10 percent during fiscal           actuarial liability from September 30, 2009,
    year 2010, and for such agencies,            to September 30, 2010, of greater than
    calculated the percentage change in          10%:
    benefit payments for the year ended
    September 30, 2009, to September                          Percentage         Percentage
    30, 2010.
                                                               change in          change in
                                                   Agency
                                                               actuarial           benefit
                                                                liability         payments
                                                   COM          22.81%             27.05%
                                                   USPS         11.47%              8.38%



 8) Compared the interest rate (used for No exceptions were found as a result of
    discounting the future liability to the applying this procedure.
    present value) and inflation rates
    (COLA and CPI-Med) used by the
    DOL loss development actuarial
    model as of September 30, 2010, to
    the interest rate (used for discounting
    the future liability to the present value)
    and inflation rates (COLA and CPI-
    Med) published by OMB in the Fiscal
    Year 2011 Mid-Session Review.




28                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 9) Compared the actuarial liability, by No exceptions were found as a result of
    agency, as of September 30, 2010, as applying this procedure.
    reported in the Memorandum to the
    CFOs of Executive Departments
    issued by DOL’s Chief Financial
    Officer, to the liability calculated by
    the DOL loss development model as
    of September 30, 2010.


 10) Compared both the benefit payments No exceptions were found as a result of
     by agency for the chargeback year applying this procedure.
     ended June 30, 2010, and the
     aggregate benefit payments for the
     chargeback years ended June 30,
     2005-2010 used by the DOL loss
     development actuarial model, with the
     benefit payments by agency for the
     chargeback year ended June 30,
     2010, and the aggregate benefit
     payments for the chargeback years
     ended June 30, 2005-2010, as
     reported in the Summary Chargeback
     Billing Report.


 11) Compared the agency groupings used No exceptions were found as a result of
     in the DOL loss development actuarial applying this procedure.
     model as of September 30, 2010, with
     the agency groupings used in the
     DOL loss development actuarial
     model as of September 30, 2009.
 .




Prepared by KPMG LLP, for the                                                                   29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed                Results of Procedures

 12) Compared the fiscal year 2010 benefit       The benefit payments calculated by the
     payments calculated by the 2009 DOL         2009 DOL loss development actuarial
     loss development actuarial model to         model varied by more than 20% and $2
     the actual fiscal year 2010 benefit         million from the agency’s actual fiscal year
     payments from the DOL Summary               2010 benefit payments from the DOL
     Chargeback Billing Report and               Summary Chargeback Billing Report for
     identified agencies where the DOL           the following agency.
     loss development actuarial model
     calculated benefit payments varied by                        Percent           Dollar
                                                    Agency
     more than 20% and $2 million from                            variance         Variance
     the actual benefit payments made               COM            24.33%         $3,869,456
     during fiscal year 2010 from the DOL
     Summary Chargeback Billing Report.




30                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    13) Compared the net effective rates           The net effective rate (interest minus
        (interest minus inflation rates) for       inflation rate1) for compensation of 2.37%
        compensation and medical used in the       used in the DOL loss development
        USPS,       OPM,      SSA,    Energy       actuarial model as of September 30, 2010,
        Employees’       Occupation    Illness     is greater than the net effective rate used
        Compensation Program, and the              for compensation in the USPS, OPM,
        Black Lung Disability Trust Fund loss      Energy Employees’ Occupation Illness
        development actuarial models as of         Compensation Program, and the Black
        September 30, 2010, to the net             Lung       Disability    Trust Fund     loss
        effective rates for compensation and       development actuarial models, and is less
        medical used by the DOL loss               than the net effective rate used for
        development actuarial model as of          compensation          in   the  SSA     loss
        September 30, 2010.                        development model, as of September 30,
                                                   2010, as follows:
                                                       - Postal Service 0.2%
                                                       - OPM 2.0%
                                                       - Energy Employees’ Occupation
                                                           Illness Compensation Program (no
                                                           compensation rates included in
                                                           models)
                                                       - Black Lung Disability Trust Fund
                                                           1.51%
                                                       - SSA (2.95%)

                                                   The net effective rate (interest rate minus
                                                   inflation rate2) for medical of 0.57% used in
                                                   the DOL loss development actuarial model
                                                   as of September 30, 2010, is greater than
                                                   the net effective rate for medical used in
                                                   the Energy Employees’ Occupation Illness
                                                   Compensation Program (-1.70%) and
                                                   Postal Service (-4.43%) loss development
                                                   actuarial models as of September 30,
                                                   2010.

1
 COLA
2
 CPI-Med
Prepared by KPMG LLP, for the                                                                  31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed                  Results of Procedures

                                                  The net effective rate (interest rate minus
                                                  inflation rate2) for medical of 0.57% used in
                                                  the DOL loss development actuarial model as
                                                  of September 30, 2010, is less than the net
                                                  effective rate for medical used in the and the
                                                  Black Lung Disability Trust Fund (1.77%) loss
                                                  development actuarial models as of
                                                  September 30, 2010.

                                                  We did not complete this procedure for net
                                                  effective rates for medical used by OPM and
                                                  SSA because the rates were not provided.




2
CPI-Med
                                                                    Prepared by KPMG LLP, for the
32                                            U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                     Special Report Relating to the
                                           Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


Agreed-Upon Procedures Performed                   Results of Procedures

14) Confirmed gross accounts receivable            Confirmations were received from all
    balances due as of June 30, 2010,              agencies that were sent a confirmation
    from the Liability for Current Federal         request. The confirmed gross accounts
    Employees’ Compensation Act Benefits           receivable balances as of June 30, 2010,
    prepared by the DOL-OCFO and                   agreed with the gross accounts receivable
    posted on the DOL website3 for all CFO         balances as of June 30, 2010, posted on
    Act agencies (except DOL) and the              the DOL website.
    U.S. Postal Service and compared
    confirmed gross accounts receivable
    balances as of June 30, 2010, to the
    amounts posted on the DOL website.


15)Compared the net intra-governmental             The variances between the net intra-
   accounts receivable balances by                 governmental      accounts     receivable
   Federal agency as reported by the               balances by Federal agency as reported
   OCFO on the Liability for Current               by the OCFO on the Liability for Current
   Federal Employees’ Compensation Act             Federal Employees’ Compensation Act
   Benefits report as of September 30,             Benefits report as of September 30, 2009
   2009, to the net intra-governmental             and the net intra-governmental accounts
   accounts receivable balances by                 receivable balances by Federal agency as
   Federal agency as reported by the               reported by the OCFO on the Liability for
   OCFO on the Liability for Current               Current         Federal      Employees’
   Federal Employees’ Compensation Act             Compensation Act Benefits as of
   Benefits report as of September 30,             September 30, 2010, are identified in
   2010.                                           Exhibit A.




3
 http://www.dol.gov/ocfo/media/reports/FECA_liability_2010_4q.pdf
Prepared by KPMG LLP, for the
                                                                                                 33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


16)Recalculated the September 30, 2010, No exceptions were found as a result of
   net     intra-governmental     accounts applying this procedure.
   receivable balances for each agency
   by adding the fiscal year 2010 bills sent
   to Federal agencies to the prior-year
   ending balance from the prior-year’s
   special report, less the current year
   cash collections as reported by the
   OCFO on the SF-224’s, plus the
   change in the 4th quarter unbilled
   accounts receivable from fiscal year
   2009 to fiscal year 2010 reported in the
   detailed general ledger, and less the
   2010 change in net other credits due
   from the public reported in the detailed
   general ledger.




34                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                   Results of Procedures

17) Compared the recalculated September            The recalculated September 30, 2010, net
    30, 2010, net intra-governmental               intra-governmental accounts receivable
    accounts receivable balances for each          balance varied greater than 1% of the
    agency to the balance reported by the          balance reported by the OCFO in the
    OCFO in the Liability for Current              Liability for Current Federal Employees’
    Federal Employees’ Compensation Act            Compensation Act Benefits report as of
    Benefits report as of September 30,            September 30, 2010 for the following
    2010, and identified differences above         agency:
    1%.
                                                       Agency      Amount              (%)
                                                        COM      ($2,134,790)        (4.75%)



18) Compared the Summary Chargeback No exceptions were found as a result of
    Billing Report for the period July 1, applying this procedure.
    2009, through June 30, 2010, to the
    bills sent to Federal entities dated July
    31, 2010.




Prepared by KPMG LLP, for the                                                                   35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


19) Compared the Allocation of Accrued No exceptions were found as a result of
    Benefits as of September 30, 2010, applying this procedure.
    recorded on the OCFO Liability for
    Current     Federal       Employees’
    Compensation Act Benefits report as of
    September 30, 2010, to the accrual
    calculation worksheet prepared by
    DOL.


                                              th
20) Compared the fiscal year 2010 4           The FY 2010 4th quarter accounts
      quarter accounts receivable prepared receivable prepared by the OCFO was
      by the OCFO and reported on the 4th less than the actual payments reported on
      quarter Liability for Current Federal the Summary Chargeback Billing Report
      Employees’       Compensation       Act by approximately $42 thousand.
      Benefits report to the fiscal year 2010
      4th quarter benefit payments reported
      on the Summary Chargeback Billing
      Report.




 36                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund
                                                                                      EXHIBIT A
                                                                        Results of Procedure 15

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                      (dollars in thousands)
                                  Net Intra-Governmental
                    Accounts Receivable as reported by the OCFO on the
        Liability for Current Federal Employees’ Compensation Act Benefits as of
                                       September 30,
                           Agency                                2010          2009        Variance
Agency for International Development                              $ 7,832       $ 7,729         $ 103
Environmental Protection Agency                                    10,232        10,068             164
General Services Administration                                    32,074        33,431       (1,357)
National Aeronautics and Space Administration                      13,615        14,914       (1,299)
National Science Foundation                                           340           309              31
Nuclear Regulatory Commission                                       1,719         1,725              (6)
Office of Personnel Management                                      4,823         4,875          (52)
U.S. Postal Service                                             1,508,455     1,427,318       81,137
Small Business Administration                                       5,865         5,842              23
Social Security Administration                                     59,278        59,754         (476)
Tennessee Valley Authority                                         77,395        81,811       (4,416)
U.S. Department of Agriculture                                    168,104       169,245       (1,141)
U.S. Department of the Air Force                                  299,731       302,724       (2,993)
U.S. Department of the Army                                       320,523       323,914       (3,391)
U.S. Department of Commerce                                        44,913        36,252         8,661
U.S. Department of Defense - other                                236,555       211,414       25,141
U.S. Department of Education                                        3,545         3,436             109
U.S. Department of Energy                                          18,652        19,335         (683)
U.S. Department of Health and Human Services                       59,368        60,182         (814)
U.S. Department of Homeland Security                              373,077       372,640             437


                                                                                      (continued)
Prepared by KPMG LLP, for the                                                                  37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund
                                                                                      EXHIBIT A
                                                                        Results of Procedure 15

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                     (dollars in thousands)
                                  Net Intra-Governmental
                    Accounts Receivable as reported by the OCFO on the
        Liability for Current Federal Employees’ Compensation Act Benefits as of
                                       September 30,
                      Agency                                     2010          2009        Change
U.S. Department of Housing and Urban
Development                                                     $ 17,570      $ 17,503           $ 67
U.S. Department of Interior                                      135,842      137,677         (1,835)
U.S. Department of Justice                                       243,447      236,259           7,188
U.S. Department of Labor                                          53,736        53,368               368
U.S. Department of Navy                                          545,670      555,871        (10,201)
U.S. Department of State                                          18,025        18,271          (246)
U.S. Department of Transportation                                227,434      229,167         (1,733)
U.S. Department of the Treasury                                  122,563      123,099           (536)
U.S. Department of Veterans Affairs                              414,637      408,911           5,726




38                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




Prepared by KPMG LLP, for the                                                                  39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed                 Results of Procedures

21) Compared       the fiscal year 2010 No exceptions were found as a result of
    benefit payments recorded in the applying this procedure.
    Integrated      Federal    Employees
    Compensation System (iFECS) and
    Central Bill Pay (CBP) databases as of
    March 31, 2010, and September 30,
    2010, to the fiscal year 2010 benefit
    payments reported in the U.S.
    Department of Treasury’s SF-224 as
    of March 31, 2010, and September 30,
    2010.


22) Performed the following procedures No exceptions were found as a result of
    over the reconciliation prepared by the applying this procedure
    Office of Workers’ Compensation
    Programs      between     the   benefit
    payments reported in the Chargeback
    Billings Reports for the fiscal year
    ended September 30, 2010, and the
    benefit payments reported in the
    iFECS and CBP databases for the
    fiscal year ended September 30, 2010:

     A) Compared the benefit expenses in
        the Chargeback Billings Reports
        reported in the reconciliation to the
        actual Chargeback Billings Reports.
     B) Compared the Benefit payments
        from iFECS and the CBP databases
        reported in the reconciliation to the
        actual iFECS and the CBP
        databases.
     C) Identified differences above 1%.

40                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


23) Compared compensation and medical             The following agencies had increases over
    bill payments by agency for the fiscal        10% in compensation and medical bill
    year ended September 30, 2010, from           payments for the year ended September
    the Summary Chargeback Billing                30, 2010, compared to the year ended
    Report prepared by DOL, to the                September 30,2009:
    compensation       and   medical   bill                 Agency         Variance
    payments by agency made for the                         NSF            18.24%
    fiscal year ended September 30, 2009,                   EDU             12.32%
    from the Summary Chargeback Billing                     COM            27.05%
    Report prepared by DOL, and                   Variances for the remaining agencies were
    identified any variances above 10%.           10% or less.


24) For a selection of 143 compensation           No exceptions were found as a result of
    payments          for initially eligible      applying this procedure.
    claimants,      compared      beneficiary
    name, beneficiary social security
    number, date of birth, benefit amount,
    payment date, and other unique
    identifiers from the applicable Forms
    CA-1 Federal Notice of Traumatic
    Injury and Claim for Continuation of
    Pay/Compensation, and CA-2 Notice
    of Occupational Disease and Claim
    for Compensation to the beneficiary
    name, beneficiary social security
    number, date of birth, benefit amount,
    payment date, and other unique
    identifiers in iFECS database.




Prepared by KPMG LLP, for the                                                                  41
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


25) For a selection of 145 compensation No exceptions were found as a result of
    payments for continuing eligibility and applying this procedure.
    file      maintenance,        compared
    beneficiary name, beneficiary social
    security, date of birth, benefit amount,
    payment date, and other unique
    identifiers from applicable Forms CA-
    7 Claim for Compensation, and CA-
    1032 Request for information on
    Earnings, Dual Benefits, Dependents
    and Third Party Settlements to the
    beneficiary name, beneficiary social
    security number, date of birth, benefit
    amount, payment date, and other
    unique identifiers in iFECS database.
.

26) For a selection of 57 medical No exceptions were found as a result of
    payments, compared the vendor this procedure.
    name, date, and other unique
    identifiers from the medical bill and
    payment amount on the summary
    sheet of the Achieve system to the
    vendor name, payment amount, date,
    and other unique identifiers in CBP
    database.


27) Calculated the change in the actuarial       The actuarial liability increased by
    liability from September 30, 2009, to        approximately $2,866 million on the
    September 30, 2010, as calculated by         compilation reports prepared by DOL from
    the DOL loss development actuarial           September 30, 2009, to September 30,
    model.                                       2010.



42                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                            Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


28) Calculated the fiscal year 2010 The calculated annual projected benefit
    projected benefit payments using the payments based on the March 31, 2010
    following two step process:             iFECS and CBP databases were
                                            approximately $61.7 million (2.23%) more
    (a) Calculated the average benefit than the actual 12 month total benefit
    payment amount per roll during the payments as of September 30, 2010,
    period of October 1, 2009 to March calculated from the Summary Chargeback
    31, 2010, by dividing the total medical Billing Reports.
    and compensation benefit payments
    from the iFECS and CBP databases
    by the number of rolls in the period
    from October 1, 2009 to March 31,
    2010 from the iFECS and CBP
    databases; and

     (b) Multiplied the average benefit
     payment amount per roll determined
     in step 28 (a) above by the number of
     rolls scheduled for fiscal year 2010 in
     accordance with the FECA.

     Compared this amount to the actual
     12-month total benefit payments as of
     September 30, 2010, calculated from
     the Summary Chargeback Billing
     Reports.




Prepared by KPMG LLP, for the
U.S. Department of Labor—Office of Inspector General                                            43
Report Number: 22-11-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


29) Compared the fiscal year 2010 4th            The FY 2010 4th quarter benefit expense
    quarter benefit expense estimate             estimate calculated by the OCFO was less
    calculated by the OCFO as reported           than the actual payments reported on the
    on the Liability for Current Federal         Summary of Chargeback Billing Report by
    Employees       Compensation      Act        approximately $42 thousand.
    Benefits report to the actual fiscal
    year 2010 4th quarter benefit expense
    recorded in iFECS and CBP
    databases.




44                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-11-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by KPMG LLP, for the                                                                   45
U.S. Department of Labor—Office of Inspector General
Report Number: 22-11-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




46                                                                     Prepared by KPMG, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                     Report No: 22-11-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

                 ACS                      Affiliated Computer Services
                 AODF                     All Other Defense
                 AUP                      Agreed Upon Procedures
                 BLS                      Bureau of Labor Statistics
                 CBP                      Central Bill Processing System
                 CFO                      Chief Financial Officers’ Act
                 COLA                     Cost of Living Allowance
                 COM                      U.S. Department of Commerce
                 CPI-Med                  Consumer Price Index for Medical
                 DHS                      U.S. Department of Homeland Security
                 DOD                      U.S. Department of Defense
                 DOI                      U.S. Department of Interior
                 DOJ                      U.S. Department of Justice
                 DOL                      U.S. Department of Labor
                 DOS                      U.S. Department of State
                 DOT                      U.S. Department of Transportation
                 EDU                      U.S. Department of Education
                 EPA                      Environmental Protection Agency
                 ESA                      Employment Standards Administration
                 FECA                     Federal Employees' Compensation Act
                 HUD                      Department of Housing and Urban Development
                 iFECS                    Integrated Federal Employees’ Compensation
                                          System
                 LBP                      Liability to Benefits Paid
                 NASA                     National Aeronautics and Space Administration
                 NCS                      Corp. for National and Community Service
                 NRC                      Nuclear Regulatory Commission
                 NSF                      National Science Foundation
                 OCFO                     Office of the Chief Financial Officer
                 OMB                      Office of Management and Budget
                 OPC                      Office of Peace Corps
                 OPM                      Office of Personnel Management
                 OWCP                     Office of Workers' Compensation Programs
                 SBA                      Small Business Administration
                                                                                (continued)
Prepared by KPMG, for the                                                                47
U.S. Department of Labor—Office of Inspector General
Report No: 22-11-001-04-431
Special Reports Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

                SFFAS                    Statement of Federal Financial Accounting
                                         Standards
                SMI                      Smithsonian Institution
                SSA                      Social Security Administration
                USAID                    U.S. Agency for International Development
                USDA                     Department of Agriculture
                USPS                     U.S. Postal Service
                TREAS                    U.S. Department of the Treasury
                TVA                      Tennessee Valley Authority




48                                                                     Prepared by KPMG, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                     Report No: 22-11-001-04-431
